      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




February 3, 2010

TO:            Maiso Bryant
               Acting Commissioner
               Administration on Children, Youth and Families
               Administration for Children and Families


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of the Missouri Department of Social Services Claim for Title IV-E
               Training Costs for Long-Term Training for July 1, 2002, Through June 30, 2006
               (A-07-09-03120)


Attached is an advance copy of our final report on the Missouri Department of Social Services
(the State agency) claim for Title IV-E training costs for long-term training for July 1, 2002,
through June 30, 2006. We will issue this report to the State agency within 5 business days.

Federal regulations specify that training expenditures must be included in the Administration for
Children and Families (ACF)-approved State training plan to be claimed at the enhanced
75-percent Federal financial participation (FFP) rate. Also, pursuant to Federal regulations,
States may receive reimbursement at an enhanced 75-percent FFP rate for the costs of short- and
long-term training at educational institutions. The regulations specify who may be trained and
the expenses that are allowable.

From July 1, 2002, through June 30, 2006, the State agency claimed $7,250,784 ($5,438,088
Federal share) in Title IV-E long-term training costs at the enhanced 75-percent FFP rate. Our
audit covered $3,019,832 (Federal share) of these costs related to three universities under
contract with the State agency (including the University of Missouri–Columbia (MU)) and to the
salaries and benefits of State agency personnel obtaining their Master’s of Social Work degree.

Our objective was to determine whether selected Title IV-E costs that the State agency claimed
for long-term training at the enhanced 75-percent FFP rate from July 1, 2002, through June 30,
2006, were allowable.

Of the $3,019,832 (Federal share) in Title IV-E training costs that the State agency claimed for
long-term training at the enhanced 75-percent FFP rate from July 1, 2002, through June 30,
2006, $1,712,563 was allowable. However, $301,187 was unallowable:
Page 2 – Maiso Bryant


      The State agency claimed $290,713 in enhanced funding for indirect costs paid to the
       three selected universities. Federal regulations as interpreted by Departmental Appeals
       Board decisions provide that indirect costs are not allowable at the enhanced training rate
       if they are calculated from an indirect cost pool that contains administrative costs that are
       not allowable as training costs.

      The State agency claimed $10,474 for MU’s direct and indirect costs that were not
       adequately documented or were in excess of the amount that MU should have claimed
       under its negotiated agreement with the U.S. Department of Health and Human Services,
       Division of Cost Allocation, and its contracts with the State agency.

In addition, $1,006,082 was potentially unallowable because the costs were not properly
allocated to all benefiting programs as required by Federal regulations.

The State agency claimed unallowable and potentially unallowable costs because it did not have
adequate policies and procedures to ensure compliance with Federal requirements.

We recommend that the State agency:

      adjust its next Title IV-E Foster Care and Adoption Assistance Financial Report to
       reduce Federal reimbursement claimed for Title IV-E training by $301,187 (Federal
       share),

      work with ACF to determine an appropriate methodology to allocate $1,509,036
       ($1,006,082 Federal share) in long-term training costs and make appropriate financial
       adjustments and revisions to the cost allocation plan as necessary, and

      strengthen its policies and procedures to ensure that it claims Federal reimbursement for
       Title IV-E training in accordance with Federal requirements and contractual provisions.

In written comments on our draft report, the State agency generally disagreed with our first two
recommendations and agreed with our third recommendation. After reviewing the State
agency’s comments, we maintain that our findings and recommendations are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591 or
through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-09-03120.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106
February 10, 2010

Report Number: A-07-09-03120

Mr. Ronald J. Levy
Director
Missouri Department of Social Services
Broadway State Office Building
P.O. Box 1527
Jefferson City, Missouri 65102-1527

Dear Mr. Levy:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Missouri Department of Social Services Claim
for Title IV-E Training Costs for Long-Term Training for July 1, 2002, Through June 30, 2006.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-09-03120 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Ronald J. Levy


Direct Reply to HHS Action Official:

Ms. Nancy Long
Acting Regional Administrator, Region VII
Administration for Children and Families
601 East 12th Street, Room 276
Kansas City, Missouri 64106-2808
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF THE MISSOURI
    DEPARTMENT OF SOCIAL
 SERVICES CLAIM FOR TITLE IV-E
      TRAINING COSTS FOR
   LONG-TERM TRAINING FOR
     JULY 1, 2002, THROUGH
        JUNE 30, 2006




                      Daniel R. Levinson
                       Inspector General

                        February 2010
                        A-07-09-03120
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act, as amended, authorizes Federal funds for States to provide
foster care and adoption assistance to children under an approved State plan. At the Federal
level, the Administration for Children and Families (ACF) administers the program. In Missouri,
the Department of Social Services (the State agency) administers the program. Title IV-E
provides Federal financial participation (FFP) at a 50-percent rate for administrative
expenditures and at an enhanced 75-percent rate for certain training expenditures.

Federal regulations specify that training expenditures must be included in the approved State
training plan to be claimed at the enhanced 75-percent FFP rate. Also, pursuant to Federal
regulations, States may receive reimbursement at an enhanced 75-percent FFP rate for the costs
of short- and long-term training at educational institutions. The regulations specify who may be
trained and the expenses that are allowable.

The State agency contracted with six State universities to provide long-term training programs.
The programs allowed undergraduate students in their senior year to complete their Bachelor’s of
Social Work degree and then begin employment with the State and allowed current State
employees to obtain a Master’s of Social Work degree.

From July 1, 2002, through June 30, 2006, the State agency claimed $7,250,784 ($5,438,088
Federal share) in Title IV-E long-term training costs at the enhanced 75-percent FFP rate. Our
audit covered $3,019,832 (Federal share) of these costs related to three universities under
contract with the State agency (the University of Missouri–Columbia (MU), the University of
Missouri at St. Louis, and Missouri State University) and to the salaries and benefits of State
agency personnel obtaining their Master’s of Social Work degree.

OBJECTIVE

Our objective was to determine whether selected Title IV-E costs that the State agency claimed
for long-term training at the enhanced 75-percent FFP rate from July 1, 2002, through June 30,
2006, were allowable.

SUMMARY OF FINDINGS

Of the $3,019,832 (Federal share) in Title IV-E training costs that the State agency claimed for
long-term training at the enhanced 75-percent FFP rate from July 1, 2002, through June 30,
2006, $1,712,563 was allowable. However, $301,187 was unallowable:

      The State agency claimed $290,713 in enhanced funding for indirect costs paid to the
       three selected universities. Federal regulations as interpreted by Departmental Appeals
       Board decisions provide that indirect costs are not allowable at the enhanced training rate
       if they are calculated from an indirect cost pool that contains administrative costs that are
       not allowable as training costs.



                                                 i
      The State agency claimed $10,474 for MU’s direct and indirect costs that were not
       adequately documented or were in excess of the amount that MU should have claimed
       under its negotiated agreement with the U.S. Department of Health and Human Services,
       Division of Cost Allocation, and its contracts with the State agency.

In addition, $1,006,082 was potentially unallowable because the costs were not properly
allocated to all benefiting programs as required by Federal regulations.

The State agency claimed unallowable and potentially unallowable costs because it did not have
adequate policies and procedures to ensure compliance with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

      adjust its next Title IV-E Foster Care and Adoption Assistance Financial Report to
       reduce Federal reimbursement claimed for Title IV-E training by $301,187 (Federal
       share),

      work with ACF to determine an appropriate methodology to allocate $1,509,036
       ($1,006,082 Federal share) in long-term training costs and make appropriate financial
       adjustments and revisions to the cost allocation plan as necessary, and

      strengthen its policies and procedures to ensure that it claims Federal reimbursement for
       Title IV-E training in accordance with Federal requirements and contractual provisions.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In comments on our draft report, the State agency generally disagreed with our first two
recommendations because, according to the State agency, the findings involved the application
of Federal cost principles to fixed-fee contracts. The State agency agreed with our third
recommendation. The State agency’s comments are included in their entirety as Appendix B.

We reviewed the contracts between the State agency and the universities and determined that
they were cost-reimbursement rather than fixed-fee contracts. Cost-reimbursement contracts are
subject to Federal cost principles. Therefore, our findings and recommendations remain
unchanged.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Title IV-E Program ...............................................................................................1
              Federal Reimbursement Requirements .................................................................1
              Missouri Department of Social Services Contracts for
                  Long-Term Training .......................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ...............................................................................................................3
               Scope.....................................................................................................................3
               Methodology .........................................................................................................4

FINDINGS AND RECOMMENDATIONS .............................................................................5

          UNALLOWABLE COSTS CLAIMED FOR LONG-TERM TRAINING......................5
              Unallowable Enhanced Funding Claimed for Universities’ Indirect Costs..........5
              Inadequately Documented Costs Claimed by the
                 University of Missouri–Columbia ..................................................................6
              Unallowable Indirect Costs Claimed by the
                 University of Missouri–Columbia ..................................................................7

          POTENTIALLY UNALLOWABLE COSTS CLAIMED FOR
            LONG-TERM TRAINING.........................................................................................8
               Federal Requirements and Guidelines ..................................................................8
               Improper Allocation of Costs................................................................................8

          INADEQUATE POLICIES AND PROCEDURES .........................................................9

          RECOMMENDATIONS................................................................................................10

          STATE AGENCY COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................10

APPENDIXES

          A: SUMMARY OF AUDIT RESULTS

          B: STATE AGENCY COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Title IV-E Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care and adoption assistance to children under an approved State plan. At the
Federal level, the Administration for Children and Families (ACF) administers the program. In
Missouri, the Department of Social Services (the State agency) administers the program.

Federal funds are available to States for the following Title IV-E administrative and training
costs:

      Allowable administrative costs include staff activities such as case management and
       supervision of children placed in foster care or considered to be Title IV-E candidates,
       preparation for and participation in court hearings, placements of children, and licensing
       of foster homes and institutions. The Federal financial participation (FFP) rate for
       administrative costs allocable to the Title IV-E program is 50 percent.

      Allowable administrative costs that qualify as training costs include the training of
       personnel employed or preparing for employment by the State or local agency
       administering the State training plan and the training of current or prospective foster care
       or adoptive parents, as well as personnel of childcare institutions. Certain of these State
       training costs qualify for an enhanced 75-percent FFP rate.

Pursuant to Federal regulations (45 CFR part 95, subpart E), States must allocate costs to the
Title IV-E program in accordance with a public assistance cost allocation plan approved by the
U.S. Department of Health and Human Services, Division of Cost Allocation (DCA), after ACF
reviews and comments on the fairness of the cost allocation methodologies. Federal regulations
(45 CFR §§ 74.27 and 92.22) also require that costs be allocated according to the accounting
principles and standards in Office of Management and Budget (OMB) Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments. Section C of Attachment A of the
circular requires that costs be allocated to programs based on the relative benefits received and
be adequately documented. Section 8.1H of ACF’s Child Welfare Policy Manual states that
training costs must be allocated to benefiting programs and describes allowable administrative
costs.

States submit the Title IV-E Foster Care and Adoption Assistance Financial Report
(ACF-IV-E-1 report) on a quarterly basis to claim Federal reimbursement for Title IV-E costs.

Federal Reimbursement Requirements

Section 474(a)(3) of the Act and Federal regulations (42 CFR § 1356.60(b)) authorize Federal
reimbursement to a State at an enhanced 75-percent FFP rate for amounts expended “for the
proper and efficient administration of the State plan” if the expenditures are for the short-term or


                                                 1
long-term training of personnel employed or preparing for employment by the State or local
agency administering the Title IV-E program, for the short-term training of current or
prospective foster or adoptive parents, or for the short-term training of staff members of certain
State-licensed or State-approved childcare institutions.

Federal regulations (45 CFR § 1356.60(b)) require that inservice training and short- and long-
term training at educational institutions be provided pursuant to 45 CFR §§ 235.63−235.66(a).
These regulations list certain activities and costs that are eligible for the enhanced FFP rate. For
training at educational institutions, the activities listed in 45 CFR § 235.64 as being allowable as
training costs include salaries, fringe benefits, tuition, and books for employees and salaries,
fringe benefits, and teaching materials for instructors. For inservice training activities or training
activities at educational institutions that are not included in 45 CFR § 235.64, section
474(a)(3)(E) of the Act and 45 CFR § 1356.60(c) authorize reimbursement to States at a
50-percent FFP rate for allowable administrative expenditures.

Pursuant to 45 CFR § 1356.60(b)(2), all training activities and costs charged to the Title IV-E
program must be included in the State’s training plan. 1 The State’s training plan must describe
the training activities and costs that will be charged to the Title IV-E program at the enhanced
75-percent FFP rate.

Missouri Department of Social Services Contracts for Long-Term Training

The State agency contracted with six State universities to provide long-term training. The 1-year
contracts (and subsequent amendments) provide for training under the Bachelor’s of Social Work
degree (bachelor’s degree) program and/or the Master’s of Social Work degree (master’s degree)
program:

        The bachelor’s degree program allowed undergraduate students in their senior year to
         complete their degree and then begin employment with the State. Students selected for
         the program signed contracts obligating them to work for the State agency for a minimum
         of 2 years after graduation. The universities paid for students’ stipends and for the
         salaries, fringe benefits, and indirect costs associated with the faculties that taught the
         courses. In turn, the State agency reimbursed the universities for Title IV-E training
         costs, excluding the universities’ share. The bachelor’s degree program did not cover
         student tuition.

        The master’s degree program allowed current State employees to obtain a master’s
         degree. Employees selected for the program signed contracts obligating them to work for
         the State agency for a minimum of 3 years after graduation. The universities paid for the
         State employees’ tuition costs and for the salaries, fringe benefits, and indirect costs
         associated with the faculties that teach the courses. In turn, the State agency reimbursed
         the universities for Title IV-E training costs, excluding the universities’ share. The State
         agency continued to pay the State employees’ salaries and fringe benefits.

1
 The State agency submitted a training plan to ACF for approval for each Federal fiscal year included in this review
(2002 through 2006).



                                                         2
The salaries, fringe benefits, and indirect costs associated with the faculties accounted for the
majority of the contract costs for both programs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected Title IV-E costs that the State agency claimed
for long-term training at the enhanced 75-percent FFP rate from July 1, 2002, through June 30,
2006, were allowable.

Scope

We judgmentally selected three State universities that participated in both long-term training
programs: the University of Missouri–Columbia (MU), the University of Missouri at St. Louis,
and Missouri State University.

From July 1, 2002, through June 30, 2006, the State agency claimed a total of $30,556,399
($22,917,299 Federal share) in Title IV-E training costs, including $7,250,784 ($5,438,088
Federal share) for long-term training at the enhanced 75-percent FFP rate. Our audit covered
$3,019,832 (Federal share) of these long-term training costs, including:

        $2,138,911 for all Title IV-E long-term training costs (direct and indirect) at MU,

        $773,993 for the salaries and benefits of current State employees in the master’s degree
         program, and

        $106,928 for indirect costs associated with long-term training at the University of
         Missouri at St. Louis and Missouri State University. 2

We did not review $2,418,256 (Federal share) claimed for direct costs at the University of
Missouri at St. Louis and Missouri State University and for the long-term training programs at
the three other State universities under contract with the State agency.

We separately reviewed the remaining Title IV-E training costs that the State agency claimed
during our audit period (costs allocated from the Social Services Cost Pool, 3 salaries and
benefits associated with initial inservice training of State agency employees, and costs for foster
care parent training and residential treatment centers’ training). We addressed those costs in
three separate reports.


2
 The $106,928 represents the difference between the funds received at the enhanced 75-percent FFP rate and the
funds that should have been received at the administrative 50-percent FFP rate for the indirect costs at the University
of Missouri at St. Louis and Missouri State University.
3
 The Social Services Cost Pool consisted of the State agency’s proportionate share of county overhead and indirect
expenses.


                                                          3
We reviewed internal controls to the extent necessary to accomplish the audit objective.

We performed fieldwork at the State agency in Jefferson City, Missouri, and at MU in Columbia,
Missouri.

Methodology

To accomplish our objective, we:

      reviewed applicable Federal laws, regulations, and policy directives, as well as State
       training plans, U.S. Department of Health and Human Services Departmental Appeals
       Board (DAB) decisions, and the State’s approved cost allocation plan;

      judgmentally selected the three universities in Missouri that charged the highest amounts
       of Title IV-E long-term training costs to the State agency;

      interviewed officials of ACF, the State agency, and MU to gain an understanding of the
       State agency’s Title IV-E training program and its policies and procedures;

      reviewed the State agency’s methods for recording and allocating training costs;

      reviewed the ACF-IV-E-1 reports and supporting quarterly cost allocation reports and
       compared the amounts claimed with the State agency’s accounting records;

      visited MU and reviewed its Title IV-E training costs claimed to the State agency, as well
       as its contract with the State agency;

      reviewed the invoices from the University of Missouri at St. Louis and Missouri State
       University to identify the universities’ indirect costs associated with Title IV-E training;

      judgmentally selected for review MU’s invoices for both the bachelor’s and master’s
       degree programs and traced the amounts claimed to supporting documentation; and

      determined the amount of indirect costs that the three selected universities claimed at the
       enhanced 75-percent FFP rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 4
                              FINDINGS AND RECOMMENDATIONS

Of the $3,019,832 (Federal share) in Title IV-E training costs that the State agency claimed for
long-term training at the enhanced 75-percent FFP rate from July 1, 2002, through June 30,
2006, $1,712,563 was allowable. However, $301,187 was unallowable:

       The State agency claimed $290,713 in enhanced funding for indirect costs paid to the
        three selected universities. Federal regulations as interpreted by DAB decisions provide
        that indirect costs are not allowable at the enhanced training rate if they are calculated
        from an indirect cost pool that contains administrative costs that are not allowable as
        training costs.

       The State agency claimed $10,474 for MU’s direct and indirect costs that were not
        adequately documented or were in excess of the amount that MU should have claimed
        under its negotiated agreement with DCA and its contracts with the State agency.

In addition, $1,006,082 was potentially unallowable because the costs were not properly
allocated to all benefiting programs as required by Federal regulations.

Our findings are summarized in Appendix A.

The State agency claimed unallowable and potentially unallowable costs because it did not have
adequate policies and procedures to ensure compliance with Federal requirements.

UNALLOWABLE COSTS CLAIMED FOR LONG-TERM TRAINING

The State agency claimed $301,187 in unallowable Title IV-E training costs, including indirect
costs that were not authorized for reimbursement at the enhanced rate, inadequately documented
direct costs, and indirect costs that were claimed on an incorrect cost base.

Unallowable Enhanced Funding Claimed for Universities’ Indirect Costs

Section 474(a)(3)(E) of the Act and 45 CFR §1356.60(c) provide for a 50-percent Federal
reimbursement rate for administrative expenditures, including “[a] proportionate share of related
agency overhead.”

Regulations (45 CFR § 1356.60(b)(3)) state that costs for short-term and long-term training at
educational institutions and inservice training may be claimed at the enhanced FFP rate if the
costs are listed in 42 CFR § 235.64.

The DAB has ruled that training costs may also be claimed indirectly. However, the DAB has
also ruled that the enhanced rate is not available for indirect costs that were developed from cost
pools consisting of both allowable training costs and other administrative costs. For example, 4

4
 See also Illinois Dept. of Children and Family Services, DAB No. 1530 (1995), in which the DAB stated that “in
order to claim FFP at [the enhanced rate for training costs], Illinois would have to show that its indirect costs
consisted entirely of allowable costs.”


                                                         5
in New Mexico Children, Youth and Families Department, DAB No. 2159 (2008), the DAB
ruled that training costs may not be claimed indirectly at the enhanced rate if these indirect costs
were developed from cost pools containing administrative costs that are ineligible for the
enhanced FFP rate. Specifically, the DAB ruled:

        The issue raised by the audit is whether all indirect costs of a university that are
        allocable to title IV-E training contracts are reimbursable at the enhanced rate.
        The answer to that question is clearly “no.” . . . . [Emphasis in original]

        Under OMB Circular A-21, the costs that are ultimately pooled together in order
        to determine a university’s F&A [facilities and administration] (indirect cost) rate
        could include many categories of costs, such as depreciation or a use allowance
        on buildings or equipment, interest on debt associated with certain buildings,
        operation and maintenance expenses, general administration, and student
        administration and services. OMB Circular A-21, Attachment, ¶ F.1. These
        categories include types of costs that are not listed in the applicable regulations as
        training costs reimbursable at the 75% enhanced rate.

Contrary to these requirements, the State agency claimed $290,713 (Federal share) 5 in
unallowable enhanced funding for indirect costs paid to the three selected universities.
Specifically, the State agency claimed indirect costs totaling $1,162,855 ($872,141 Federal
share) as Title IV-E training costs at the enhanced 75-percent FFP rate. The universities had
claimed these costs for both the bachelor’s and the master’s degree programs based on negotiated
agreements with DCA. Because these costs were developed from cost pools containing costs
unallowable as training costs, they were allowable for Federal reimbursement only at the
administrative 50-percent FFP rate and unallowable at the enhanced 75-percent FFP rate.

Pursuant to Federal law and regulations, these indirect costs should have been claimed at the
administrative 50-percent FFP rate. The $290,713 (Federal share) that we are questioning
represents the difference between the $872,141 claimed at the enhanced 75-percent FFP rate and
the $581,428 that should have been claimed at the administrative 50-percent FFP rate.

Inadequately Documented Costs Claimed by the University of Missouri–Columbia

OMB Circular A-87, Attachment A, section C, which applies to States, provides: “To be
allowable under Federal awards, costs must meet the following general criteria: . . . . (j) Be
adequately documented.” OMB Circular A-21, section A.2.e, which applies to universities,
provides that universities “must provide for adequate documentation to support costs charged to
sponsored agreements.”

The State agency claimed $13,770 ($9,191 Federal share) in unallowable long-term direct and
indirect training costs. Because MU did not adequately document the direct costs, they did not
qualify for Federal reimbursement. A total of $9,219 ($6,915 Federal share) in direct costs did
not have any supporting documentation, including:

5
This amount comprised $183,785 for MU, $87,744 for the University of Missouri at St. Louis, and $19,184 for
Missouri State University.


                                                       6
        $6,105 ($4,580 Federal share) for the costs of travel, materials, and supplies claimed
         under the master’s degree program and

        $3,114 ($2,335 Federal share) for salaries, fringe benefits, and software costs claimed
         under the bachelor’s degree program.

Based on MU’s negotiated agreement with DCA, we determined that associated indirect costs
amounted to $4,551 ($2,276 Federal share). 6 Thus, the unallowable direct and indirect costs
totaled $13,770 ($9,191 Federal share).

Unallowable Indirect Costs Claimed by the University of Missouri–Columbia

Section G.11 of OMB Circular A-21, which applies to universities, requires that universities
negotiate an indirect cost rate with the Federal Government. Specifically, DCA negotiates
indirect cost rate agreements with universities. Section G.2 requires that indirect costs be
distributed on the basis of modified total direct costs. 7

The State agency claimed $2,564 ($1,283 Federal share) in unallowable long-term indirect
training costs submitted by MU for both the bachelor’s and master’s degree programs that did
not comply with the contractual provisions or the negotiated agreement with DCA because MU
claimed the costs on an incorrect base. 8

Master’s Degree Program

Although the contract between MU and the State agency for the master’s degree program
permitted indirect costs to be reimbursed for equipment costs, the negotiated agreement with
DCA did not. In accordance with section G.2 of OMB Circular A-21, the negotiated agreement
required that indirect costs be calculated based on modified total direct costs, which do not
include the costs of equipment. By applying the methodology in the contract, contrary to the
negotiated agreement, the State agency incorrectly received reimbursement totaling $565
($283 Federal share) as Title IV-E training costs for MU’s indirect costs for the master’s degree
program.

Bachelor’s Degree Program

The contract between MU and the State agency for the bachelor’s degree program permitted
indirect costs to be claimed only on salaries and benefits, which was more restrictive than the
requirements in the negotiated agreement with DCA. The negotiated agreement provided for the
application of modified total direct costs. As a result, we accepted all indirect costs that were
6
 We questioned the enhanced portion of these costs in the finding titled “Unallowable Enhanced Funding Claimed
for Universities’ Indirect Costs.” We are questioning the nonenhanced portion here.
7
 Modified total direct costs consist of all salaries and wages, fringe benefits, materials, supplies, services, travel, and
the first $25,000 of each subgrant and subcontract. Modified total direct costs exclude equipment.
8
We questioned the enhanced portion of these costs in the “Unallowable Enhanced Funding Claimed for
Universities’ Indirect Costs” finding. We are questioning the administrative (that is, nonenhanced) portion here.


                                                            7
claimed in accordance with the contract. However, we did not accept the inclusion of costs apart
from salaries and benefits because, although such costs would have been allowable under the
negotiated agreement, they were not costs to which MU was entitled under its contract with the
State agency. As a result, we determined that the State agency received reimbursement for
$1,999 ($1,000 Federal share) in unallowable Title IV-E training costs.

POTENTIALLY UNALLOWABLE COSTS CLAIMED
FOR LONG-TERM TRAINING

The State agency claimed $1,509,036 ($1,006,082 Federal share) in potentially unallowable
Title IV-E training costs for salaries, fringe benefits, and associated indirect costs for MU
instructors under both the bachelor’s and master’s degree programs. These costs were
potentially unallowable because they were improperly allocated to the benefiting programs.

Federal Requirements and Guidelines

Federal regulations (45 CFR § 95.507(a)(1) and (2)) require the State agency to submit a cost
allocation plan that describes the procedures used to identify, measure, and allocate all costs to
each program it operates. The regulations also require the State agency to conform to the
accounting principles and standards prescribed in OMB Circular A-87 and pertinent Department
regulations and instructions.

OMB Circular A-87, Appendix A, section C.3.a., states: “A cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost objective in
accordance with relative benefits received.” Consistent with the provisions of the circular,
ACF’s Information Memorandum ACF-IM-91-15, issued July 24, 1991, states: “Training costs
for all training, including long-term educational training (degree programs), must be allocated
among all benefiting programs and may not be direct-charged to title IV-E, unless title IV-E is
the only benefiting program.” 9

Improper Allocation of Costs

The State agency’s approved cost allocation plan did not contain any procedures to identify,
measure, and allocate the long-term training costs from MU (or any other State university) to
Title IV-E training.

The State agency claimed $1,509,036 ($1,006,082 Federal share) as MU’s Title IV-E training for
salaries, fringe benefits, and associated indirect costs. Of this amount, $799,132 ($532,744
Federal share) represented the costs for three instructors for the master’s degree program and one
instructor for the bachelor’s degree program whose entire salaries were invoiced to and paid by
the State agency. These instructors taught classes not only to students who had agreed to work

9
 We would have reported a similar finding under ACF’s earlier (1985) policy governing the allocation of training
costs, which was replaced by ACF Policy Announcement ACYF-PA-90-01. Under the earlier policy, training costs
were to be allocated among benefiting programs unless at least 85 percent of training costs were attributable to
Title IV-E. (See October 7, 1985, memorandum from the Commissioner of ACF’s Administration on Children,
Youth and Families.)


                                                       8
for the State agency after graduation but also to students who were not part of these programs
and who were not contractually obligated to the State agency. An MU official informed us in a
February 20, 2008, email that “No course is limited only to Title IVE students. Child welfare is
a major subset of the profession of social work and there are students other than those supported
by Title IVE who have strong interest in specializing in child welfare.”

To claim Title IV-E training costs, the State agency adjusted the amount paid to the universities
to account for cost sharing by dividing the amount paid by 75 percent. The State agency then
applied a penetration rate to determine the claim amount. The penetration rate was calculated by
dividing the number of children who qualified for Title IV-E assistance by the total number of
foster care children statewide.

The penetration rate would have been useful in allocating costs among State employees who
worked on Title IV-E and non-Title IV-E programs, but it did not account for the fact that some
students being taught by the four instructors would never work for the State agency. Statistics
from the Department of Labor, Bureau of Labor Statistics, indicate that only 30 percent of social
workers will ultimately work for either State or local government agencies. To properly allocate
costs among all benefiting programs as required, the State agency should have allocated on the
basis of both the penetration rate and the number of prospective and current State employees in
relation to total students in a class.

Because we could not determine what portion of these costs should have been allocated to
Title IV-E, we are setting aside for ACF adjudication the $1,509,036 ($1,006,082 Federal share)
that the State agency claimed for MU’s instructor salaries, fringe benefits, and associated indirect
costs. 10

INADEQUATE POLICIES AND PROCEDURES

The State agency did not have policies and procedures to ensure that its staff correctly claimed
indirect costs at the administrative 50-percent FFP rate. As a result, the State agency claimed all
indirect costs associated with the direct costs that were eligible for enhanced funding at the
enhanced 75-percent FFP rate.

Further, MU’s policies and procedures were not adequate to ensure that its staff maintained
documentation to support MU’s claim for Federal reimbursement. Additionally, the State
agency’s policies and procedures were not adequate to ensure that MU claimed indirect costs
pursuant to contractual provisions and MU’s negotiated agreement with DCA.

Finally, the State agency did not properly allocate long-term training costs to all benefiting
programs because its approved cost allocation plan did not contain any procedures for
identifying, measuring, and allocating the long-term training costs from MU (or any other State
university) to Title IV-E training.



10
 We questioned the enhanced portion of the associated indirect costs in the “Unallowable Enhanced Funding
Claimed for Universities’ Indirect Costs” finding. We are setting aside the nonenhanced portion here.


                                                       9
RECOMMENDATIONS

We recommend that the State agency:

      adjust its next ACF-IV-E-1 report to reduce Federal reimbursement claimed for Title
       IV-E training by $301,187 (Federal share),

      work with ACF to determine an appropriate methodology to allocate $1,509,036
       ($1,006,082 Federal share) in long-term training costs and make appropriate financial
       adjustments and revisions to the cost allocation plan as necessary, and

      strengthen its policies and procedures to ensure that it claims Federal reimbursement for
       Title IV-E training in accordance with Federal requirements and contractual provisions.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In comments on our draft report, the State agency generally disagreed with our first two
recommendations because, according to the State agency, the findings involved the application
of Federal cost principles to fixed-fee contracts. The State agency agreed with our third
recommendation. The State agency’s comments are included in their entirety as Appendix B.

We reviewed the contracts between the State agency and the universities and determined that
they were cost-reimbursement rather than fixed-fee contracts. Cost-reimbursement contracts are
subject to Federal cost principles. Therefore, our findings and recommendations remain
unchanged.




                                               10
APPENDIXES
                                APPENDIX A: SUMMARY OF AUDIT RESULTS

                                         Title IV-E Training Costs Claimed for
                                          Long-Term Training for the Period
                                          July 1, 2002, Through June 30, 2006

                                                                 Federal Share

                                      Reviewed           Questioned            Set Aside            Allowable

Direct costs

Salaries and benefits of
  State employees in the
  master’s degree program              $773,993                                                      $773,993

Long-term training at
 University of Missouri–
 Columbia                             1,403,772               $6,915            $754,693              642,164

Indirect costs

Long-term training:

    University of Missouri–
     Columbia                           735,139              187,344 1            251,389             296,406

    University of Missouri
     at St. Louis                         87,744              87,744 2

    Missouri State University             19,184              19,1842

    Total                            $3,019,832             $301,187          $1,006,082           $1,712,563




1
 This amount consisted of $183,785 in unallowable enhanced payments for indirect costs, $2,276 in unallowable indirect costs
associated with direct costs of $6,915, and $1,283 in unallowable indirect costs that the University of Missouri–Columbia
incorrectly claimed.
2
These indirect costs represent the unallowable portion of total indirect costs claimed at the enhanced rate.
                                                                                                                                    Page 1 of2


                     APPENDIX B: AUDITEE COMMENTS 





                  lour Poult/in/. Ollr SupP(lrl.
                                                          JtRf.MlAli   W . (l~Vl NIXON.GOV~RNOP.            • ROI<Au>J. UYV, DIRtcTOil

                                            P.O. !lOX 1'21'   l"'o.oJ.>"· A YS1 A{ ~ ()I,,,,,,   B",w,>I(j' j.:rn:kSON ClTY. MO~'102·lsn
                                                                                 .....·.... US5.MC1.C'OV . 51)·1, 1",(1" •   n ).151·3201 rAX


                                                 Oc tober 23. 2009


p.. trick J. Cogley
Regional Inspector General for Audit Services
Dcpnrtmcnl of Heal th and Human Services
Office o f InspcClorGeneml. Offices of Audi t Services. Region VII
601 East 12th Stre1:t, Room 249
KanSllsCil}'. MO 64106

       Re: 	   NCI'iell' vf/he MisSQ uri D,'pw 'lmeni QjSocial S.m'ic!!! Claim/or Tille /V·E Training
               Cusls/or Long-Term Trtlining/orJu6' I, 2002 Through June 30. 2006
               Re,xm No. A-07-09·03120

  Dear Mr. Cogley:

          The Missouri Department of Social Services hereby responds to the draft report of the above­
  referenced audit dated August 19. 2009. The draft report askcd th at we prescnt any commcnts and
  inc!udt: a stat~mcm of concurrence or non-concurrence wi th each of the three recommendations.

          The State agency contracted wi th the un iversi tics to provide long-tenn training programs for a
  fixed fee negotiated each fiscal year based on the department31trai ning needs. The 3nnual contracts
  utilized a budgt't the universities wou ld bill against in ordcr to ensure the stale agenc)" was not
  reimbursi ng an excessive fcc for the Iraining programs. The stale agency did not pass through Title 1V­
  I:: gram funds for the universities to cla im thei r actual eosts ag3i ns1. To the elt tent the G IG audit
  disc losed billings \0 support the contract were undocumented. we concu r with the fi ndi ngs.

          The audi t recommends the s tate agcnc), reduce the federal reimbursemen t claimed lor JV-E 

  training by $301.187. We disagree with the aud it reference s that GMIl circular A-2 1 which governs 

  the univef11ity indirt!ct cost rales and cost allocation appl y to the state agency fixed fee contract. 


           The audit recommends the st3 te 3gency work with ACI' to resolve $ 1.006.0K2 (federal share)
  of poten tiall y unallowa hle costs c13imed for long-tenn train ing. We disagree wi th the aud it
  determination that the fixed fee contract for the agencies lo ng-tenn trltining needs may need to be
  furt her alloc3ted. We do not believe the audit IIppropriatel y evaluated Iht' contracts in place and will
  work wi th ACI' to resolvc any conccrns they havc wi th the contracts and cost allocation plan




                                                    R Et.A V Mt SS()IJ~1    


                                            roo. "I:AR,,,,; ANU "":1:<; " '''PA,n!} 

                                    1·800-73S·2466 "OK"E ' 1-,WQ.7JS-l966 1rXt PlION_: 

                                                                                                       Page 2 of2



Pmrick. Copley
October :..J. 200<)
Page 2


          We agree wi!h the final audit finding that policies and procedures ~ strengthened to ensure
  contractual provisions arc followed . We have rcvis..--d university contracts for long-tenn training \0
  more clearly define st:rvices paid and daimcd 10 Title IV-E.

         We look forward 10 workin g with your ollie\.' \0 resolve (he recommend ations presented in the
  Final Repan. [>[eas.- do lIot ht:sita1c \0 cont:lC\ Jennifer Tidball at (57])75 1-753) if you ha\'e any
  questions about the foregoi ng reSp!)11SCS.




                                                 IGL'J1..­
                                                       Ronald J. Le\'y
                                                       Di rector



  RJL:RIJ:bsb
